CERTIFICATE OF SERVICE
NO. 20-684
Benjamin Tagger
Petitioner,
v.
Strauss Group Ltd
Respondent.
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Benjamin Tagger Petition for Rehearing, by mailing one (1) true and correct copy of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Joseph J. Saltarelli
Hunton Andrews Kurth LLP
200 Park Avenue, FL 52
New York, NY 10166
(212)309-1000
jsaltarelli@HuntonAK.com
Counsel for Strauss Group Ltd

(S&t

chan^ekhar

February 5, 2021
SCP Tracking: Tagger-2928 West 5th Street-Cover White

